   QUALITY CONTROL REVIEW OF
AUDITED FINANCIAL STATEMENTS FOR
        FY 2009 AND FY 2008
      Federal Aviation Administration

       Report Number: QC-2010-010
      Date Issued: November 13, 2009
           U.S. Department of
                                                                Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Quality Control Review of Audited                                   Date:    November 13, 2009
           Financial Statements for fiscal years 2009 and
           2008, Federal Aviation Administration
           Report Number: QC-2010-010

  From:    Calvin L. Scovel III                                                     Reply to
                                                                                    Attn. of:   JA-20
           Inspector General

    To:    The Secretary
           Federal Aviation Administrator

           I respectfully submit the Office of Inspector General’s (OIG) Quality Control
           Review report on the Federal Aviation Administration’s (FAA) audited Financial
           Statements for Fiscal Years (FY) 2009 and 2008.

           The audit of FAA’s Financial Statements as of and for the year ended
           September 30, 2009, was completed by Clifton Gunderson LLP
           (Clifton Gunderson), of Calverton, Maryland (see Attachment), under contract to
           OIG. We performed a quality control review of the audit work to ensure that it
           complied with applicable standards. These standards include the Chief Financial
           Officers Act, as amended; Generally Accepted Government Auditing Standards;
           and Office of Management and Budget Bulletin 07-04, “Audit Requirements for
           Federal Financial Statements,” as amended.

           Clifton Gunderson concluded that the financial statements present fairly, in all
           material respects, the financial position of FAA as of September 30, 2009, and its
           net costs, changes in net position, and budgetary resources, for the year then
           ended, in conformity with accounting principles generally accepted in the United
           States. Under contract to OIG, KPMG LLP, of Washington, DC, audited last
           year’s FAA financial statements and also expressed an unqualified opinion on
           those statements. 1


           1
               Quality Control Review of Audited Financial Statements for Fiscal Years 2008 and 2007, Federal Aviation
               Administration, Report Number QC-2009-008, November 13, 2008. OIG reports and testimony can be found on our
               Web site at : www.oig.dot.gov.
                                                                                 2


We congratulate FAA for obtaining clean audit opinions with no material
weaknesses for 2 consecutive years. FAA should be commended for making
significant progress in correcting control deficiencies in its financial management
systems, which is no longer considered a significant deficiency this year. FAA
also made good progress in addressing deficiencies pertaining to its Property,
Plant, and Equipment (PP&E) accounting and reporting. However, due to the
magnitude and complexity of FAA’s PP&E, continued management attention is
required.

Clifton Gunderson FY 2009 Audit Report

Clifton Gunderson reported one internal control significant deficiency and no
instances of reportable noncompliance with laws and regulations.

Significant Deficiency

   1. Property, Plant, and Equipment Accounting and Reporting

Clifton Gunderson made 14 recommendations to FAA to strengthen asset
management and accounting controls for PP&E; we agree with all the
recommendations and therefore, are making no additional recommendations.
FAA officials concurred with the significant deficiency and the recommendations
and committed to implement corrective actions by June 30, 2010. In accordance
with DOT Order 8000.1C, the corrective actions taken in response to the
recommendations are subject to follow up.

Our review disclosed no instances where Clifton Gunderson did not comply, in all
material respects, with applicable auditing standards.

Other Matters

While not formally addressed in Clifton Gunderson’s report, continued
management attention and oversight of payments to grantees is needed to help
sustain good financial management practices, especially for administering the
$1.3 billion funded under the American Recovery and Reinvestment Act. In
FY 2009, acting on our advice, FAA conducted a much more comprehensive test
of payments made to Airport Improvement Program grantees. Based on the
testing results, FAA projected that about $38 million in improper payments were
made to grantees, mostly due to insufficient supporting documents provided by
grantees. Testing for improper payments and requiring grantees to provide
adequate support for use of Federal funds is essential to ensure accountability and
provide for transparency. We encourage FAA to continue enhancing this testing.
                                                                               3



We appreciate the cooperation and assistance of representatives of FAA, Office of
Financial Management, and Clifton Gunderson. If we can answer any questions,
please call me at (202) 366-1959; Ann Calvaresi-Barr, Principal Assistant
Inspector General for Auditing and Evaluation, at (202) 366-1427; or Rebecca
Leng, Assistant Inspector General for Financial and Information Technology
Audits, at (202) 366-1407.


Attachment

                                        #
